NO.

In the

Supreme Court of the United States
Chris Eugene Cosner,
Petitioner,
v.
United States of America,
Respondent.

On Petition for a Writ of
Certiorari from the United States
Court of Appeals for the Fifth
Circuit
Fifth Circuit Case No. 16-60673

CERTIFICATE OF SERVICE
I, Margaret Sams Gratz, appointed under the Criminal Justice Act, certify that
today, September 3, 2021, pursuant to Rule 29.5 of the Supreme Court Rules, a copy of
the Petition for Writ of Certiorari and the Motion to Proceed in Forma Pauperis was
served on counsel for the United States by Federal Express, No. 774727000018,
addressed to:
The Honorable Brian H. Fletcher
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
2845773

I further certify that all parties required to be served with this Petition and the
Motion have been served.
Dated: September 3, 2021.
RESPECTFULLY SUBMITTED:
/s/ Margaret Sams Gratz
Margaret Sams Gratz (MB #99231)
Mitchell, McNutt & Sams, P.A.
105 South Front Street
Post Office Box 7120
Tupelo, Mississippi 38802-7120
Telephone: 662-842-3871
mgratz@mitchellmcnutt.com
ATTORNEY FOR PETITIONER/
DEFENDANT

2845773

2

